HHS/OIG-Audit--"Review of Hospice Eligibility at Hospice of Florida Suncoast, Inc., (A-04-95-02111)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Hospice Eligibility at Hospice of Florida Suncoast, Inc.," (A-04-95-02111)
August 19, 1996
Complete
Text of Report is available in PDF format (2.01 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Suncoast, Inc., a home health agency, received improper Medicare payments totaling
$8.9 million for 176 ineligible beneficiaries. Another $5.9 million was paid to Suncoast for 118 beneficiaries for whom
we were unable to determine whether a terminal illness existed at the time of admission to the hospice. These problems
occurred because hospice physicians made inaccurate prognoses of life expectancy based on the medical evidence in the patients'
files or because the evidence was not sufficient to determine that the beneficiary was terminally ill. In addition to financial
adjustments, we recommended that the intermediary coordinate with the Health Care Financing Administration (HCFA) in providing
training to hospice providers and physicians on eligibility requirements for hospice beneficiaries, and conduct periodic
reviews of hospice claims to ensure the hospice is obtaining sufficient medical information to make valid eligibility determinations.
The intermediary generally agreed with our recommendations and stated it is committed to working closely with HCFA to strengthen
program procedures and controls to ensure proper payment of hospice claims.